 

               Office of
               INSPECTOR GENERAL
               U.S. Department of the Interior
 



          Department of the Interior
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
  
 
 


         Museum Collections:
     Accountability and Preservation
                                  


 
 
Report No. C‐IN‐MOA‐0010‐2008                    December 2009
 
                                      
                       United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington, DC 20240




                                                                            DEC 1 6 2009
Memorandum

To :              Rhea Suh
                  Assistant Secretary for Policy, Management and Budget

                  Larry EchoHawk
                  Assistant Secretary for Indian Affairs

From :            Mary L. Kendall I      a'-I.I
                                             1---
                                                    ~
                                                     /)/ , .<. { c~ lI (
                                                     . '-f -'
                                                                ,-     '


                  Acting Inspector General /

Subject:          Final Audit Report, "Department of the Interior Accountability and Preservation
                  of Museum Collections" (Report No . C-IN-MOA-OOIO-2008)

    This memorandum transmits the consolidated results of our assessment of the Department of
the Interior' s (DOl) stewardship over museum collections. Our assessment included an audit of
DOl ' s accountability over museum collections and an evaluation of DOl's preservation of those
collections.

    Our audit found that DOl is failing to fulfill its stewardship responsibilities over museum
collections. Specifically, we found a widespread failure to properly accession, catalog, or
inventory museum collections. At DOr facilities, elements of the Nation ' s heritage are being
neglected and forgotten in thousands of boxes that contain millions of objects neither identified
nor accounted for. Additionally, DOr has little idea of what museum collections non-DOr
facilities hold.

   Our report includes 10 recommendations related to accountability over museum collections.
Based on management' s response to our draft report, we consider:

           ,   Recommendations 6 and 10 resolved but not implemented.

         ,     Recommendations 1 and 4 unresolved because management did not agree with the
               original recommendations. Based on the concerns expressed, we revised these
               recommendations.

         ,. Recommendations 3, 5, 7, 8, and 9 unresolved. While management generally agreed
            with the recommendations, additional information is needed before we can consider
            the recommendations resolved. Appendix H to the report describes the additional
            information needed.

         Recommendation 2 unresolved. We added this recommendation after reviewing
          management’s response to the draft report.

    At the conclusion of our audit, we conducted a brief evaluation of DOI’s preservation
practices over its museum collections. We found that DOI needs to take additional steps to
improve preservation practices over its museum collections. Because the preservation of the
collections at many DOI sites has been neglected, countless artwork, artifacts, and other museum
objects are in jeopardy. Based on the evaluation work, we added three additional recommendations
(Recommendations 11, 12, and 13) to this report.

        Please provide us a response to the report by January 15, 2010. The response should
provide information on actions taken or planned to address our findings and recommendations,
target dates and titles of the officials responsible for implementation. Please address your
responses to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               1849 C Street, NW, MS 4428
               Washington, D.C. 20240

        The legislation, as amended, creating the Office of Inspector General requires that we
report to the Congress semiannually on all reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        If you have any comments or questions regarding this report, please call me at (202) 208-
5745.
                                  EXECUTIVE SUMMARY

The Department of the Interior (DOI or Department) is failing to fulfill its stewardship
responsibilities over museum collections second in size only to the Smithsonian Institution. The
Department manages collections that are estimated to include over 146 million items of artwork,
artifacts, and other museum objects at 625 Department facilities and at least 1,020 non-DOI
facilities.

We found widespread failure to properly execute the three key processes required to maintain
accountability over museum collections – accessioning, cataloging, and inventorying. At DOI
facilities, elements of the Nation’s heritage are being neglected and forgotten in thousands of boxes
containing millions of objects neither identified nor accounted for. As a result, these collections are
unavailable for research, education, or display and are subject to theft, deterioration, and damage.
The Department has little idea what museum collections non-DOI facilities hold. We found that the
Department did not have inventory listings of the collections held by outside facilities and did not
conduct the required annual physical inventories. Four bureaus admitted they do not even know all
facilities that hold their museum collections.

These widespread accountability issues are largely due to poor program management, ineffective
oversight, poor reporting, and an insufficient allocation of resources. Many of these problems have
been documented as far back as 1990 when we issued our audit report “Accountability and Control
over Artwork and Artifacts” (Report No. 90-83). In 1993, DOI identified lack of accountability and
control of museum property as one of its four most critical material weaknesses. To address this
weakness, DOI developed Department-wide standards for managing museum collections;
unfortunately, bureaus are simply not following that guidance. Establishing accountability over
these museum collections has not been a priority for the Department.

In its response to our draft report, the Department agreed that it needs to improve the management
of its museum collections and that there are opportunities to enhance the processes for identifying
and tracking museum collections. The Department took exception, however, to how we
characterized the overall state of its museum programs, stating that it had made significant progress
in museum stewardship since 1990. The Department attributed the issues we identified primarily to
the lack of funding and staff. While we acknowledge that progress has been made, we remain
concerned about the lack of accountability for the Department’s museum collections. The
Department estimates that full cataloging of its collections will not be completed for at least another
20 years - well after 2030. To effectively address these issues, the Department’s bureaus will need
to identify and allocate the appropriate resources.

At the conclusion of our audit, we conducted a brief evaluation of the Department’s preservation
practices over its museum collections. We found that the Department needs to take additional steps
to improve preservation practices over its museum collections. Because the preservation of the
collections at many DOI sites has been neglected, countless artwork, artifacts, and other museum
objects are in jeopardy.



                                                    
                                              Table of Contents 
Why We Did This Audit and Evaluation ..................................................... 1 
 
Background .............................................................................................. 1 
 
Details of Audit ......................................................................................... 3 
 
Accountability Over Museum Collections ................................................. 3 
     DOI is failing to track museum collections held in its facilities ........................... 3 
         Accessioning .............................................................................................. 3 
         Cataloging ................................................................................................. 5 
         Inventorying .............................................................................................. 6 
     DOI is failing to track museum collections held by others ................................. 8 
 
Program Management .............................................................................. 9 
     Program Management and Oversight ................................................................ 9 
     Poor Management Reports .............................................................................. 10 
     Resources .......................................................................................................... 10 
 
Best Practices ......................................................................................... 11 
     Partnerships ...................................................................................................... 11 
     Consolidation of Facilities ................................................................................. 11 
     Site Procedures Manual and Team ................................................................... 12 
 
Management Views ................................................................................ 13 
      
Evaluation of Preservation Practices Over Museum Collection .................. 14 
 
Results of Evaluation .............................................................................. 14 
     Preservation Categories .................................................................................... 14 
 
Recommendations from Audit ................................................................ 19 
 
Recommendations from Evaluation ........................................................ 20 
 
Appendices 
         Objective, Scope, Methodology, and Internal Controls .............................. A‐1 
         Related Reports ........................................................................................... B‐1 
         Sites Visited .................................................................................................. C‐1 
         Abbreviations and Acronyms....................................................................... D‐1 
         Scope of Collections ..................................................................................... E‐1 
         Challenges Regarding Collections ................................................................. F‐1 
         Department Comments and OIG Response ................................................ G‐1 
         Status of Recommendations ....................................................................... H‐1 
         Preservation and Protection Checklist .......................................................... I‐1 
                                                                   
      WHY WE DID THIS AUDIT
                                                           Archeological Objects,
        AND EVALUATION                                   a category of museum property that
                                                            includes items that come from
                                                         archeological research on Federal or
Our July 2008 report, “History Collection in                          tribal lands.
Jeopardy at Harpers Ferry Center” (Y-EV-NPS-
0004-2008), describes long-standing problems of
accountability of the artifacts under the Center’s
care. These problems endangered important artifacts
such as Ansel Adams photographs; records and
journals of Civil War General, Abner Doubleday;
and the first National Park Service (NPS) uniforms.
The report noted that documentation of the
collection at the Center was lacking for years, with                                  Photo by NPS

one NPS museum registrar stating, “It’s hard to
come up with recommendations for collections
management when you don’t even know what you
have or where it’s located.” We wanted to
determine if the accountability problem identified at
Harper’s Ferry was an isolated incident or part of a
systemic problem.


                BACKGROUND                                                            Photo by NPS




The Department manages museum collections
second in size only to the collections held by the
Smithsonian Institution. These collections provide a
link to our cultural and natural heritage and serve as
a fundamental resource for research into our national
environment, history, and culture.                                                    Photo by NPS


Ten categories of museum collections exist. The
largest, documents (60 percent) and archeological
objects (35 percent), make up approximately 95
percent of the total. Other categories of collections
include art, ethnography, history, paleontology,
geology, botany, zoology, and environmental
samples (see Figure 1).

DOI’s Office of Acquisition and Property
Management (PAM) oversees the Museum Program.
Like many DOI programs, however, the

                                                 1 
management of museum collections is largely delegated to the individual bureaus. The National
Park Service (NPS) holds the largest collections. The Bureau of Land Management (BLM),
Bureau of Reclamation (BOR), Bureau of Indian Affairs (BIA), and Fish and Wildlife Service
(FWS), maintain smaller collections (see Figure 2). Collections at other bureaus and
Departmental offices represent less than 1 percent of the Department’s overall collections.


    Other
              Categories (FY07)                            Collection Size (FY07)
                                                                        FWS   BOR
     3%                        History                          BIA      4%   2%
                                 2%                             4%
                                                          BLM
                                                           8%




    Archeology                           Documents
       35%                                  60%
                                                                                      NPS
                                                                                      82%
                                                                                                    
            Figure 1                                        Figure 2 
 
According to DOI’s Museum Property Handbook, museum property maintained by a
Departmental unit, such as a national park or wildlife refuge, should directly relate to the mission
or programs of its associated bureau. By law, however, bureaus may also be responsible to
maintain other, unrelated types of property. For example, bureaus must maintain any
archeological collections recovered from federal lands. Each Departmental unit that maintains a
museum collection must have a written scope of collection statement. The scope defines the
purpose of the unit’s museum collection and states what types of property may be acquired for
that purpose. Museum property may be acquired through five types of transactions — donation,
purchase, exchange, transfer, and field collection.

A large number of non-DOI facilities hold DOI museum collections under the provisions of the
“Antiquities Act of 1906,” which allows reputable organizations, such as museums and
universities, to obtain permits to examine, excavate, and gather objects of antiquity on federal
lands. However, under the “Archaeological Resources Protection Act of 1979,” archeological
resources found on lands owned or controlled by the U.S. Government remain federal property.
Additionally, non-DOI facilities hold DOI-owned collections for research, storage, display, or a
variety of other reasons.




                                                     2 
                                    DETAILS OF AUDIT

We visited 28 DOI and 3 non-DOI sites from August 2008 through December 2008 to review
their accountability over Museum Collections. Our audit included BLM, BOR, BIA, FWS, and
NPS sites. Our objectives were to determine if DOI knew what artwork, artifacts, and other
museum objects it owns and where those objects were located. Appendix A describes our audit
scope and methodology and Appendix C lists the sites we visited.

We identified a lack of accountability over museum collections. DOI has jeopardized countless
works of art, artifacts, and other museum objects by failing to keep track of its vast museum
collections. At DOI facilities, important elements of the Nation’s heritage sit in boxes, neglected
or forgotten. At non-DOI facilities, DOI does not know what objects these facilities hold and
cannot even identify all non-DOI facilities that have its collections. The results of our audit are
chronicled below.


            ACCOUNTABILITY OVER MUSEUM COLLECTIONS

DOI is failing to track museum collections held in its facilities.
Three key processes are vital in identifying and tracking museum collections:

    Accessioning: Documenting legal custody, ownership, and how the objects were
     acquired.

    Cataloging: Recording detailed information about individual objects or groups of related
     objects. Catalog records identify objects in possession, their condition, and their location.

    Inventorying: Checking the existence and physical location of the objects and the
     accuracy of recorded catalog record information.

                     Works of art, artifacts, and other museum objects enter DOI’s collections
   Accessioning  
                     through accessioning. Before accepting an object, staff members must first
                     determine that it fits within their unit’s scope of collection and that a basis
for establishing legal title exists. Once an object or group of objects has been accepted, it must
be accessioned and recorded in an accession book (either electronic or hard copy). Each
accession transaction should be logged sequentially into the accession book, which captures key
information including description, condition, and method of acquirement.

One accession transaction might relate to a group of objects received from a single source. For
example, a single accession may reflect a significant number of objects obtained from a field
collection or archeological dig.




                                                  3 
                           Documents,                                     Accessioning is the first step toward establishing
          a category of museum property that
                                                                          legal title and accountability over objects and should
           includes documentation providing                               be completed in a timely manner. We found,
            evidence of events, persons, or                               however, that of the 28 sites we visited, nine were
        resources associated with a unit such as                          not accessioning objects upon receipt. In fact, three
                  photos, maps, etc.                                      of these sites were not accessioning at all.1 Five of
                                                                          the nine sites2 had significant accession backlogs.
                                                                          For example:

                                                                                 BOR - New Melones Artifact Storage
                                                                          Facility in Jamestown, CA: Only about 24,000 of its
                                                                          estimated 418,000 objects had been accessioned.

                                                                                NPS - Golden Gate National Recreation Area
                                                                          in San Francisco, CA: We were told that it takes
                                                                          from 1 to 6 months to accession an object once a
                                                                          decision has been made to do so. However, we
                                              NPS Photo of Ruth Coyote    discovered approximately 500 archeological objects
                                                                          for which no decision had yet been made. Golden
                                                                          Gate has had some of these objects for 30 years.

                                                                                 BLM - Billings Curation Center in Billings,
                                                                          MT: The Center had 534 boxes of unaccessioned
                                                                          objects. We were told that some of the objects date
                                                                          back to the mid 1980s. Subsequent to our visit, the
                                                                          Center has taken steps to initiate accessioning of the
                                                                          534 boxes.
                      Original leather-bound Indian accounting ledger
               Photo by Office of Special Trustee for American Indians    In order to determine what objects should be
                                                                          accessioned, each unit that maintains a museum
                                                                          collection should have a written scope of collection.
                                                                          Absent a written scope of collection, unit staff
                                                                          members may waste time and resources accepting,
                                                                          documenting, and maintaining objects that should
                                                                          never have been included in their collections.


                                         Map of the Louisiana Purchase
                                       Photo by Archiving Early America




                                                            
1
  These three sites were: BIA Rocky Mountain Regional Office in Billings, MT; BIA Western Regional Office in
Phoenix, AZ; and FWS Portland Regional Office in Sherwood, OR
2
  These five sites were: BLM Billings Curation Center in Billings, MT; BOR New Melones Artifact Storage
Facility in Jamestown, CA; NPS Golden Gate National Recreation Area in San Francisco, CA; NPS Southern
Florida Collections Management Center in Homestead, FL; and FWS Kenai National Wildlife Refuge in Soldotna,
AK. The remaining site that was not accessioning objects upon receipt was NPS Boston National Historical Park in
Boston, MA. However there were only approximately 100 objects not accessioned.


                                                                              4 
The Departmental Manual requires units to review their scopes of collections at least every 5
years. However, we found that 12 of the 28 DOI sites operated either without a scope of
collection or with an outdated scope. Specifically:

        Two BIA sites and one NPS site (see Appendix E) did not have written scopes of
         collections.

        Four NPS, one BOR, one BLM, and two FWS sites (see Appendix E) had not reviewed
         their scopes of collection for over 5 years. Boston National Historical Park's scope of
         collection dated back to the 1980s. Golden Gate National Recreation Area in San
         Francisco, CA and Anasazi Heritage Center in Dolores, CO were in the process of
         updating their documents.

        One BOR site, New Melones Artifact Storage Facility in Jamestown CA, is using an
         Agency-wide scope of collection instead of a unit-specific scope.

In the absence of a good accessioning process, bureaus may accept objects for which legal title
has not been sufficiently established, and bureaus risk losing information and documentation
related to the objects being accessioned, making it difficult to accurately describe the object and
its source. Objects that have not been accessioned also have a greater risk of loss or theft.

                     For FY 2007, DOI reported that out of
        Cataloging   a total collection size of
                     approximately 146 million objects, 78
million objects (53 percent) were not cataloged. We found
that large cataloging backlogs are common to most of the
bureaus. NPS, however, stood out with an estimated 60
million uncataloged objects or 78 percent of DOI’s 2007
total. Of the 9 NPS sites we visited, 6 had backlogs of
over 400,000 objects.3 The backlog at Golden Gate
National Recreation Area in San Francisco, CA was over 3
million objects, while the backlogs at           Many DOI museum objects are merely boxed and stored out of sight.
Acadia National Park in Bar Harbor, ME
and the Alaska Region Curatorial Center in Anchorage, AK were around 1 million objects each.
In some cases, objects remained uncataloged for decades. For example, Acadia and the South
Florida Collections Management Center in Homestead, FL had uncataloged objects dating back
to the 1940s.

As a result of the cataloging backlogs, millions of objects remain boxed — unknown and
unaccounted for. These objects are, for the most part, unavailable for research, education, or
display and are susceptible to theft, deterioration, and damage.
                                                            
3
  These sites include: Alaska Regional Curatorial Center in Anchorage, AK; Golden Gate National Recreation Area
in San Francisco, CA; Southern Florida Collections Management Center in Homestead, FL; Boston National
Historical Park in Boston, MA; Acadia National Park in Bar Harbor, ME; and Fort Vancouver National Historical
Site in Vancouver, WA.



                                                               5 
                      All DOI units with museum
      Inventorying 
                      collections are required to conduct
                      annual physical inventories to verify
the existence of the objects in their collections. Physical
inventories help identify and correct accountability
problems and are the first line of defense for identifying
lost or stolen objects. In general, units are required to
conduct physical inventories of random samples of
cataloged objects and accessions.4 For sampled objects,
the unit verifies 1) object
                                 This facility shows what objects are being stored. What may be unknown is where the
existence, location, and         objects came from and their significance. Proper accessioning, cataloging, and
condition, 2) catalog            inventorying can resolve these issues. 
and/or accession records
existence, accuracy, completeness, and 3) appropriate catalog and/or accession number
markings.

In general, NPS and BOR staff complied with annual inventory requirements at the sites we
visited. We found, however, widespread failure to conduct inventories at BIA, BLM, and FWS.

        BIA: Staff at five5 of seven sites we visited with museum property, failed to conduct
         annual inventories of their collections. In fact, staff at all five sites were unable to
         provide a current inventory listing of the objects in their collections. The listings we
         received were up to 5 years old and had not been updated.

        An Indian Affairs official informed us that bureau sites are responsible for maintaining
         the inventory of museum collections at their sites. Site officials indicated, however, that
         accountability for museum collections had been transferred years ago to BIA’s Division
         of Environmental and Cultural Resource Management (DECRM). They indicated that
         DECRM staff neither conduct the annual physical inventories nor request that site
         officials conduct them. Therefore, no one has performed these inventories in years.

        BLM: The Billings Curation Center in Billings, MT does not conduct the required
         annual physical inventories due to insufficient staffing. Site management indicated that
         objects are typically checked only when they are retrieved from storage for researchers
         and because collections are maintained in a secure area, the risk of loss is low.




                                                            
4
  Whenever the number of cataloged objects or accessions is less than 250 objects, the unit must conduct a 100
percent physical inventory. Units must also conduct a 100 percent inventory of “controlled museum property,”
which represents property that is either highly valuable or especially vulnerable to theft, loss, and damage.
5
  These five locations were: Alaska Native Claims Settlement Act Office in Anchorage, AK; Western Regional
Office in Phoenix, AZ; Sherman Indian School Museum in Riverside, CA; Southern California Agency Office in
Riverside, CA; and Rocky Mountain Regional Office in Billings, MT. 


                                                               6 
        FWS: All three6 of the sites we visited with                                 Other
         museum property did not perform annual                       museum property categories include:
         physical inventories in compliance with
         Department policy. At Kenai National
         Wildlife Refuge in Soldotna, AK, staff said                 Ethnography – Objects associated with
         that a physical inventory has never been                    cultural or traditional life ways of Native
                                                                     Americans or other indigenous groups
         conducted. At the Portland Regional Office
         located in Sherwood, OR, staff maintained no
         inventory listing at all.

We also found that systems problems hamper the
bureaus’ ability to maintain inventory listings and
conduct their annual physical inventories. Although
DOI issued a requirement that all bureaus begin using
one standard system, the Interior Collections
Management System (ICMS), by September 30,                                                                  Photo by NPS
2009, no standard system is currently in place for
tracking museum collections. Instead, DOI uses a
patchwork of systems.                                                  Biological – Specimens are collected
                                                                        from geographical areas for study.

BIA has a unique inventory systems problem.
Access to its Automated National Catalog System
Plus was shut off years ago due to a court ruling and
performance problems. Although BIA officials told
us that they are now allowed access, the sites still do
not have access to the system. However, an official
informed us that in FY 2009, BIA staff initiated                                                            Photo by OIG
reestablishing access to the system. They have
performed system testing and security verification.
The official stated that they have begun training on                       Paleontology – Fossil items.
the system and should complete full implementation,
including updates to the existing records by the end
of the fiscal year. However, this had only been
partially completed.

Using a standardized system should improve DOI
accountability over its museum collections.
However, one FWS official stated that ICMS will                                        Photo by the University of Colorado
really only provide uniform information for those                                              Museum of Natural History

collections that have been cataloged and inventoried
to an extent that makes their entry into ICMS


                                                            
6
 These three sites were: Kenai National Wildlife Refuge in Soldotna, AK; Portland Regional Office in Sherwood,
OR; and D.C. Booth Historic National Fish Hatchery in Spearfish, SD.


                                                               7 
possible. “For the lion’s share of materials that bureaus count as museum property only a small
percentage may be in a state that lends itself to inclusion within ICMS. It will note the bureau
backlog, but not much else for unidentified collections,” the FWS official said.

Failure to conduct annual inventories or do so improperly places collections at risk. The absence
of good inventory controls increases the risk that objects could be lost or stolen. A recent OIG
investigation of a suspected art theft at DOI’s National Business Center illustrates this difficulty.
The manager who requested investigative assistance was unable to confidently claim that six
paintings were ever in NBC’s possession and, thus, could not prove that they were stolen — as
opposed to being lost or misplaced. A 100 percent inventory would have been necessary to
determine whether the paintings were truly missing. In fact, during the course of the
investigation, several of the paintings thought to be missing were found. The investigators
concluded that the paintings could not be found due to a breakdown in the property accounting
system rather than to criminal activity.

In another example, 530 items were identified as missing at the Western Archaeological and
Conservation Center (the Center) in Tucson, AZ. These items included 500 documents missing
since a move to a new building 5 years ago and 30 objects, such as bowls and a basket, that have
been missing since the late 1980s. Although these items have been identified as missing, the
Center has not deleted them from the inventory listings or reported them to law enforcement as
lost or stolen. The staff at the Center stated that they kept the items on the inventory listing
because in the absence of a 100 percent inventory, they cannot be sure that the items have been
actually lost or stolen.

DOI is failing to track museum collections held by others.

We found that DOI did not adequately track collections held by non-DOI facilities, and in most
cases, had little idea what objects those facilities held. BIA, BLM, FWS, and NPS did not even
have complete lists of all non-DOI facilities that held their museum collections. For example,
“BLM’s FY2007 Museum Collections Management Annual Summary Report” identified 79
facilities, including 2 in Canada and 1 in Denmark, which potentially held BLM collections. In
these cases, BLM suspected, but had not yet confirmed, that these facilities actually held BLM
collections.

Where non-DOI facilities were identified, BIA and FWS did not have any inventory listings of
the objects held by those facilities and did not conduct any of the required annual physical
inventories. BLM stated that as of 2008, it had inventory listings for 74 of the 136 known non-
DOI facilities, representing approximately 35 percent of its total collections at non-DOI
facilities.

While numerous challenges contribute to problems in managing museum collections stored at
non-DOI facilities (see appendix F), we found that BIA and BLM were not even communicating
with the non-DOI facilities that they knew housed their museum collections. We visited three
non-DOI facilities that were identified as having DOI property. The Department did not have an
inventory of what these non-DOI facilities held. The facilities, however, were able to provide us
with inventory listings of DOI’s objects that they held.


                                                  8 
                                                          PROGRAM MANAGEMENT

The Department’s Museum Program lacks the structure and support necessary to be an effective
steward over the Nation’s museum collections. The widespread accountability issues we found
result from poor program management, ineffective oversight, poor management reports, and
insufficient allocation of resources.

                                          Management of the museum programs has been a
    Program Management and Oversight  
                                          longstanding issue dating back to at least 1990 when we
                                          reported that bureaus did not always perform physical
inventories; reconcile inventory results with property records; and investigate missing, stolen,
damaged, or destroyed property. At that time, the Department did not have detailed procedures
for accessioning and cataloging property. As a result, the Department identified lack of
accountability and control of museum property as one of the four most critical material
weaknesses it faced in 1993. The Department also developed high level standards and
requirements for managing museum collections7, applicable to all bureaus that had museum
collections, as well as more detailed procedures contained in the “Museum Property Handbook.”
The bureaus, however, are not required to comply with the Handbook procedures. As a result,
there is vast inconsistency in the procedures used at the 625 DOI facilities that house museum
collections.

While there is ample guidance on museum collections management, neither PAM nor bureau
managers have acted to ensure the bureaus comply with such guidance. Inadequate oversight has
contributed to the lack of accountability over museum collections. Furthermore, employees at
many sites told us that they believe their managers do not consider the administration of museum
collections to be a high priority.

At BIA, responsibility for museum collections is most unclear. Although one Indian Affairs
official stated that property staff at individual sites were responsible for the day-to-day inventory
of their sites’ museum collections, property staff told us they had no responsibility for the
museum property because custody and control of the program was transferred to Division of
Environmental and Cultural Resource Management (DECRM) in 1999 or 2000. The Director of
Field Property Operations at one site told us that they were told not to worry about the museum
property, that it was no longer their responsibility. Previously, he had maintained inventory
listings and conducted physical inventories. DECRM did not continue these practices. BIA
acknowledged this disconnect and stated that it will assess the museum collection management
process and determine the appropriate roles and responsibilities.


                                                            
7
  The current standards are now documented in 411 DM issued by the Office of Acquisition and Property
Management (PAM). 411 DM defines the roles and responsibilities for the museum program. It also provides the
Departmental standards for documenting museum collections, including standards for accessioning, cataloging,
inventorying, and reporting on museum collections.



                                                                  9 
                                 Each bureau prepares an annual summary report of its museum
  Poor Management Reports        collections management, which PAM consolidates into a DOI-
                                 wide management summary report. Unfortunately, we found
that the bureau reports, and, consequently, the DOI-wide report, are often inaccurate. For
example:

    BOR: A data report used to prepare the summary report estimated a backlog of
     approximately 394,000 objects at the New Melones Artifact Storage Facility in
     Jamestown, CA. The curator, however, told us that the actual backlog could exceed 1.3
     million objects.

    NPS: The Collection Management Report estimates the backlog at Lewis and Clark
     National Historic Park in Astoria, OR, to be about 44,000 objects, whereas the actual
     number, per the curator, was about 9,000.

    BLM: The Billings Curation Center located in Billings, MT, did not estimate or report
     any backlog estimates in BLM’s annual report. The curator told us that only cataloged
     objects are included in the report. Therefore, BLM’s annual summary report understates
     the number of objects held by the Center.

    BIA’s summary report indicated that the Area Archeology Field Office in Anchorage,
     AK, had 5,000 museum objects that had not been cataloged. We found that the office
     had no museum property at all. Field office officials told us that they did not understand
     why their office had been included in the annual summary report at all given that it does
     not have any museum property.

                      All bureaus cited the lack of both funding and qualified staff as the reason
    Resources         for their accession and catalog backlogs and their failure to conduct
                      inventories. These resource issues have been universally cited in the bureau-
level and Department-wide “Museum Property Management Summary Reports” for the last few
years. While “lack of resources” is a common lament of program managers, the extremely low
staffing levels for the museum programs make it difficult for bureaus to establish accountability
over their museum collections. For example:
                                                           “A lack of trained staff to manage BIA museum
                                                           property collections at field locations continues to
    BIA has one curator for the entire bureau. She        be a significant issue . . . .”                 BIA Official
     is responsible only for curating objects at the
     Central Region Office in Washington, DC. Any museum property work done at other
     BIA sites is done by staff with other responsibilities. One BIA official said that “limited
     staff and funding contribute to the lack of significant progress in improving property
     accountability.”

    BLM staff consisted of only four full-time curators for the entire bureau in 2007.
     Additional staff of 25 professionals, such as archeologists and paleontologists, helped
     with the museum program in a limited capacity.




                                                10 
        FWS and NPS staff perform the majority of
         museum property management responsibilities as
         collateral duties. FWS officials stated that the
         Service “simply lacks the staff, time, and funding to
         adequately respond to many of its conservation,
         cataloging, and curation issues.” NPS officials
         stated that staff “often has only a small percentage
         of time devoted to museum management with no
         technical oversight by a professional level curator.”

Bureau staff at nearly every location told us that they have
too few people with the appropriate qualifications to
manage their museum collections. At many sites, we were
told that 1) bureau managers do not consider museum
collections administration to be important, 2) training is
inadequate, and 3) backlogs are primarily caused by lack                                     Millions of objects throughout the
of funding.                                                                                  Department remain uncataloged due to a
                                                                                             lack of funding and manpower to do the job.




                                                                  BEST PRACTICES

Although we found widespread accountability problems in DOI’s management of its museum
program, we also found several best practices at individual sites.

                           We found that four
            Partnerships   sites8 we visited had
                           developed
partnerships with the public, colleges, and/or
universities. For example, the Western
Archaeological and Conservation Center
located in Tucson, AZ, had a partnership to use
graduate students to help catalog items. Fort
Union Trading Post National Historic Site
located in Williston, ND, also used volunteers
to catalog items. These partnerships       Volunteers like the two shown here are of great service to DOI and the
have aided DOI in managing                 Nation. Many have accessioned, cataloged, and inventoried artworks,
museum collections.                        artifacts, and other museum objects to help clear backlogs.  


                                                               The Department reports that museum collections are held at 625
      Consolidation of Facilities                              DOI sites. Each site is required to maintain the collections in
                                                               accordance with departmental guidance. Some bureaus have
                                                            
8
 These four locations are: Western Archaeological and Conservation Center in Tucson, AZ; Billings Curation
Center in Billings, MT; Fort Union Trading Post National Historic Site in Williston, ND; and, D.C. Booth Historic
National Fish Hatchery in Spearfish, SD. 


                                                                              11 
taken steps to consolidate collections from multiple sites into larger centers in order to comply
with this requirement. Such consolidation utilizes minimal staff more efficiently. For example,
NPS consolidated the collections from five of its parks in South Florida into one curation facility.
NPS cited the following benefits of this consolidation:

    Efficient use of resources.

    Better ability to attract resources, grants, and partnerships than individual parks.

    Ability to attract and retain professional staff and consistently meet professional
     standards.

                                         Staff of the Fort Union Trading Post National Historic
  Site Procedures Manual and Team        Site in Williston, ND developed a detailed site procedures
                                         manual that provides step-by-step instructions for
cataloging its objects. The manual also describes a “team cataloging” process that functions
much as an assembly line does. Each team member performs discrete duties associated with
cataloging a series of artifacts. Using this process, Fort Union staff have been able to catalog
61,872 objects, or 21 percent of its backlog, during FY 2008.




                                                12 
                                                               MANAGEMENT VIEWS

In its response to our draft audit report, the Department agreed that it needs to improve the
management of its museum collections. Specifically, it agreed that there were opportunities to
enhance the accessioning, cataloging, and inventorying processes that are vital in identifying and
tracking bureau museum collections.

Although the Department agreed with the need for improvements, it took exception to how we
described the current state of the museum program. Specifically, the Department stated that our
report did not capture the significant accomplishments that have occurred since our previous
Department-wide audit of artwork and artifacts in 19909. Accomplishments included the
development of museum collection guidance for the bureaus in the form of 411 DM and the
associated Museum Property Handbook. Additionally, the Department cited numerous
initiatives to track and monitor implementation including completion of annual museum
summary reports, completion of two targeted management control reviews of museum property
collections, and development of the ICMS.

After evaluating the Department’s response, we stand by our conclusions on DOI’s museum
program. Although nearly 20 years have passed since our previous audit, we still find
widespread issues with the accessioning, cataloging, and inventorying of museum collections.
We agree that the Department has issued ample guidance concerning the proper management of
museum collections. The bureaus, however, are simply not following that guidance as
evidenced by over 50 percent of museum objects not yet being cataloged and the numerous sites
we visited that failed to conduct required annual inventories. The Department estimates that full
cataloging of its collections will not be completed for at least another 20 years - well after 2030.

The Department’s response reiterated the lack of funding and qualified staff that we discussed in
our report and stated that our recommendations, to be effective, must address these shortfalls.
We do not explicitly include a recommendation to adequately fund the museum programs. We
do recommend, however, that the Department develop and implement a plan to eliminate the
accessioning and cataloging backlogs. Inherent in that process is identifying and allocating the
appropriate resources to implement the plan.

The Department’s response addressed each of our recommendations and included additional
comments on the report. We evaluated all of the Department’s comments and made revisions to
the report as we considered necessary. Appendix G summarizes our analysis of the
Department’s comments on our recommendations as well as some of the more significant
comments and how we addressed them.




                                                            
9
    Accountability and Control Over Artwork and Artifacts – Department of the Interior (Report No. 90-83, July 1990)



                                                                      13 
        EVALUATION OF PRESERVATION PRACTICES OVER MUSEUM
                           COLLECTION
At the conclusion of our audit, we conducted a brief evaluation to determine the adequacy of the
Department’s preservation practices over its museum collections. Appendix A describes the
scope and methodology of this evaluation. Choosing from the Department’s comprehensive
checklist of preservation practices designed to help bureaus evaluate how successfully they are
preserving and protecting museum property in their custody,10 we selected 44 significant
elements from seven major preservation categories to evaluate at selected sites. Our evaluation
checklist is provided in Appendix I.


                                                        RESULTS OF EVALUATION

We found the Department could take additional steps to improve preservation of its museum
collections. Preservation of the collections at many DOI sites has been neglected and countless
artwork, artifacts, and other museum objects are in jeopardy. While some sites had only a small
number of preservation practices they were not performing (four sites had just one deficiency
each), others had numerous preservation practices they were not performing (four sites were not
performing more than half of the preservation practices). Separate reports are being sent to each
bureau providing detail of our preservation findings at their sites.


     PRESERVATION CATEGORIES

The Department’s Museum Property Handbook defines seven preservation categories: storage,
environment, security, fire protection, housekeeping, planning, and staffing.

Storage. In order to ensure that museum collections are properly preserved, it is important that
they be provided with safe and secure storage. This includes providing sufficient dedicated
space and, to the extent possible, providing space that is separated from all other uses. The space
must be adequate to accommodate the particular characteristics and quantity of objects,
specimens, and archival items in the collection. To assess the adequacy of museum collection
storage, we evaluated 13 critical requirements for proper storage. The following is a break out of
the results.




                                                            
10
  The Departmental Manual Part 411, Museum Property Handbook, Volume 1, Appendix E, provides a
comprehensive checklist for the preservation, protection, and documentation of museum property.



                                                                  14 
                                         Storage Results 
                             Sites Without Deficiencies    Sites With Deficiencies


             Safe From Flooding    67%                                               33%
         Appropriately Insulated   76%                                               24%
             Appropriate Space     76%                                               24%
                Sufficient Space   58%                                               42%
     Adequate Storage Cabinets     84%                                               16%

      Cabinets Not Over‐Stacked    96%                                                4%
             Open Shelving Safe    93%                                                7%

        Stacked Items Protected    87%                                               13%
                Earthquake Safe    82%                                               18%

              No Overcrowding      80%                                               20%
            Secure Exhibit Cases   76%                                               24%

       Appropriate Exhibit Cases   84%                                               16%
       Properly Framed Artwork     91%                                                9%




Environment. Changes in temperature and humidity, and exposure to light, dust, and
pollution cause detrimental chemical and physical reactions in objects. Because deterioration of
objects results from adverse environmental conditions, monitoring and controlling the
environment are key factors to ensure the long-term preservation of museum property. To assess
the adequacy of environmental controls over museum collections, we evaluated 9 critical
requirements for proper environmental controls. The following is a break out of the results.




                                                     15 
                                     Environment Results
                              Sites Without Deficiencies    Sites With Deficiencies

      Temp/Humidity Monitored        44%                                                   56%
         Observations Recorded       42%                                                   58%
             Observations Saved      62%                                                   38%
          Observations Analyzed      58%                                                   42%
      Hygrothermographs Maint        87%                                                   13%
        Outside Light Controlled     78%                                                   22%
       Artwork Away From Vents       100%
       Pest Control Devices Used     71%                                                   29%
          Type of Pests Analyzed     58%                                                   42%



Security. Whether museum property is in storage, in transit, on exhibit, or in an office,
protecting it against theft or other loss is paramount. The primary objectives of museum
property security are to: (1) provide for the protection and safety of staff and visitors, (2) prevent
the loss of museum property from all recognized threats, and (3) protect the documentation (e.g.,
accession records, catalog records, and field data) on museum property. To assess the adequacy
of security over museum collections, we evaluated 8 critical requirements for proper security.
The following is a break out of the results.



                                           Security Results
                              Sites Without Deficiencies    Sites With Deficiencies

         Appropriate Staff Have Keys       78%                                             22%
                 Keys are Controlled       80%                                             20%
                    Visitors Escorted      80%                                             20%
                      Visitors Sign In     71%                                             29%
      Closing Procedure Documented         82%                                             18%
          Alarm Systems Maintained         80%                                             20%
           Sensitive Items Separated       87%                                             13%
         Irreplaceable Items Guarded       89%                                             11%




                                                      16 
Fire Protection. Fire is one of the most likely disasters to occur and can cause the most
devastating damage to museum property. Protecting museum property from fire involves both
protecting the structure housing the collection and protecting the property itself. The three key
elements of fire protection are: (1) prevention, (2) detection, and (3) suppression. To assess the
adequacy of fire protection over museum collections, we evaluated 5 critical requirements for
proper fire protection. The following is a break out of the results.



                                      Fire Protection Results
                              Sites Without Deficiencies    Sites With Deficiencies

       Fire Detection/Suppression      71%                                               29%

                 Fire Extinguishers    91%                                                9%

     Staff Trained on Extinguishers    84%                                               16%

          Fire System Heads Clear      100%

            No Flammable Liquids       93%                                                7%




Housekeeping. Housekeeping encompasses tasks such as dusting, vacuuming, and applying
protective waxes, as well as tasks such as changing filters in air handling units, monitoring pests
through traps, and monitoring relative humidity. To assess the adequacy of museum collection
housekeeping, we evaluated 4 critical requirements for proper housekeeping. The following is a
break out of the results.



                                      Housekeeping Results
                              Sites Without Deficiencies    Sites With Deficiencies

         Housekeeping Performed        78%                                               22%

      Written Housekeeping Rules       62%                                               38%

            Housekeepers Trained       89%                                               11%

        Smoking/Eating Prohibited      82%                                               18%




                                                      17 
Planning. The preservation, protection, documentation, and management of museum property
requires a program designed to provide appropriate long-term care for museum objects. Each
bureau must ensure that planning standards are developed to maintain museum property. DOI
has developed mandatory plans, reports, and procedures, and optional plans and procedures to
facilitate appropriate museum property management. To assess the adequacy of museum
collection planning, we evaluated 3 critical requirements for proper planning. The following is a
break out of the results.



                                             Planning Results
                              Sites Without Deficiencies    Sites With Deficiencies

                   Written Plan        71%                                              29%
        Assessment of Property         51%                                              49%
      Plan to Evacuate Property        56%                                              44%




Staffing. Whether curatorial staff hold the title of museum curator or technician, property
management specialist, or a person in another classification with collateral museum property
duties, their duties relevant to museum property should be described in position descriptions and
critical elements of performance standards. To assess the adequacy of museum staffing, we
evaluated 2 critical requirements for proper staffing. The following is a break out of the results.



                                             Staffing Results
                              Sites Without Deficiencies    Sites With Deficiencies

      Staff Assigned Responsibilites     91%                                             9%
           Staff Have Been Trained       87%                                            13%




                                                      18 
                      RECOMMENDATIONS FROM AUDIT

We recommend that the Assistant Secretary of Policy, Management and Budget:

       1. Develop and implement a policy that provides for greater Department-level oversight
          of bureau museum programs to ensure that they comply with Department Manual
          requirements.

       2. Revise DM 411 to require that bureaus comply with procedures established in the
          Museum Property Handbook, Volume II.

       3. Develop and implement a comprehensive plan to be used by all bureaus to eliminate
          accessioning and cataloging backlogs so that all museum collections can be properly
          identified, tracked, and accounted for. The plan should identify the necessary
          resources, should consider some type of prioritization for more valuable objects, and
          address missing items.

       4. Ensure that the Scope of Collection Statement of every site is reviewed and updated
          at least every 5 years, as required by Departmental Manual 411.

       5. Ensure that required annual physical inventories are conducted at all DOI facilities
          that have museum collections and that appropriate steps are taken to address missing
          items.

       6. Complete the department-wide implementation of ICMS to ensure uniform
          recordkeeping.

       7. Reduce the number of facilities managing collections by consolidating collections at
          larger curation centers.

       8. Pursue additional partnerships with interested organizations, such as universities,
          foundations, and other special interest groups, to aid in managing museum
          collections.

       9. Increase effectiveness of control over museum collections held at non-DOI facilities
          by:
              a. identifying all organizations that hold DOI collections,
              b. identifying all objects held by those organizations, and
              c. ensuring that annual physical inventories are conducted.

We recommend that the Assistant Secretary of Indian Affairs:

       10. Issue a policy that clarifies the roles and responsibilities of the Division of
           Environmental and Cultural Resource Management (DECRM) and the Division of
           Property in the management of museum collections.


                                               19 
                RECOMMENDATIONS FROM EVALUATION

We recommend that the Assistant Secretary of Policy, Management and Budget:

      11. Revise Departmental Manual Part 411 to require bureaus comply with the
          preservation and protection procedures established in Volume I of the Museum
          Property Handbook.

      12. Increase effectiveness of protection of collections held at DOI and non-DOI facilities
          by ensuring that annual physical inventories, which clearly identify the condition of
          museum property held, are conducted as required.

      13. Direct all sites that have DOI property complete the comprehensive checklist
          included in Departmental Manual Part 411.




                                              20 
                                                                                   Appendix A 


         OBJECTIVE, SCOPE, METHODOLOGY, AND INTERNAL
                      CONTROLS FOR AUDIT

                                           Objective
Our objectives were to determine if DOI knew what artwork, artifacts, and other museum objects
it owned and where the objects were located.

                                             Scope
The scope of our audit included museum collections management at the Department level and at
the bureau and field levels for NPS, BLM, FWS, BOR, and BIA. These five bureaus manage the
majority of DOI’s museum collections. We conducted our audit from August 2008 to April
2009.

                                          Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based upon our audit objectives.

To accomplish the audit objectives, we:

     Included tests of records and other audit procedures that were considered necessary.

     Gained an understanding of DOI and the bureaus’ museum programs.

     Interviewed DOI and bureau officials at the headquarters, regional, and field office
      levels.

     Visited selected bureau sites to identify museum collections accountability issues. We
      selected sites based on preliminary assessments of the number of items located at the site,
      coverage of all five bureaus and their regions, and multi-bureau sites at one location.
      Because we did not select a statistical sample of sites, the deficiencies we identified
      cannot be projected to the entire population of sites that hold museum collections.
      However, the results of our work at these sites, in conjunction with other evidence we
      gathered, support our conclusion that there are wide spread issues concerning
      accessioning, cataloging, and inventorying.

     Identified best practices within DOI and at non-federal repositories.

                                               A‐1 
 
                                                                                    Appendix A 

     Analyzed DOI and bureaus’ management processes for identifying, accessioning,
      cataloging, and inventorying museum collections.

     Determined the effect of not identifying, accessioning, cataloging, and inventorying DOI
      museum collections.

                                     Internal Controls
As part of the audit, we evaluated DOI and the bureaus’ systems of internal controls related to
processing and managing their museum collections.

This evaluation of internal controls was conducted at DOI and bureau offices to the extent we
considered necessary to accomplish the audit objectives. We concluded that DOI and bureaus’
museum programs lack adequate internal controls to identify and account for the millions of
work of art, artifacts, and other museum objects under their control. These deficiencies are
discussed in the audit results section of this report.

We reviewed DOI’s “Performance and Accountability Reports” for FYs 2006 and 2007 and
noted that no weaknesses were reported related to museum collections. No department-wide
“Government Performance and Results Act” goals were found that related to the identification of
or accountability for museum collections. BLM had one goal that related to the identification of
or accountability for museum property.

Our recommendations, if implemented, should improve internal controls in the problem areas we
identified.


                  OBJECTIVE, SCOPE, AND METHODOLOGY
                            FOR EVALUATION

                                          Objective
Our objective was to determine if DOI was adequately preserving and protecting its artwork,
artifacts, and other museum objects.

                                             Scope
The scope of our evaluation covered preservation and protection of museum collections at the
Department level and at the bureau and field levels for BIA, BLM, BOR, FWS, and NPS. These
five bureaus manage the majority of DOI’s museum collections. Our scope also included
protection and preservation of DOI museum collections maintained by non-DOI repositories.



                                               A‐2 
 
                                                                                    Appendix A 

                                        Methodology
We conducted this evaluation in accordance with standards established by the President's
Council on Integrity and Efficiency (PCIE), effective January 2005. To accomplish the
evaluation objective, we:

     Reviewed DOI policies, procedures and handbooks to gain an understanding of DOI and
      the bureaus’ museum programs.

     Interviewed appropriate DOI and bureau officials at the headquarters, regional, and field
      office levels. We also interviewed officials at non-DOI repositories visited.

     Developed a preservation checklist that contained 44 questions related to seven
      categories of preservation and protection of museum collections. These categories
      included storage, environment, security, fire protection, housekeeping, planning and
      staffing. To develop the checklist, we reviewed DOI’s checklist and selected significant
      questions that addressed the seven categories. The checklist is based on preservation
      requirements outlined in the Departmental Manual and Handbook.

     Visited selected bureau sites and non-DOI repositories to identify museum protection and
      preservation issues. We selected sites based on assessments of the location of DOI and
      non-DOI repositories, coverage of all five bureaus and their regions, and multi-bureau
      sites at one location. While at each site, we completed an OIG preservation checklist.
        
     Requested that all 28 sites visited during our audit complete and return the preservation
      checklist. During the previous audit, we noted our physical observations of the sites, but
      did not complete a formal checklist. For the 23 sites that responded, we compared the
      self-reported deficiencies on the preservation checklist against our physical observations
      during the audit. Based on this comparison, we revisited three sites where the sites’ self-
      reported deficiencies did not reflect our physical observations. At each site revisited, we
      completed the OIG preservation checklist. For our analysis, we used our observations at
      the three sites visited. For the remaining 20 sites that responded, we used responses to
      the checklist provided by the site.

     In addition to the checklist, we asked all of the sites to provide us copies of certain
      mandatory and optional documents described in the Museum Handbook that are intended
      to assist sites in the preservation of their collections. These included the Checklist
      Report, Basic Security Protection Report, Fire Protection Plan, Integrated Pest
      Management Plan, Environmental Control Plan, Annual Emergency Management Plan,
      Current Collection Storage Plan, and Written Handling Procedures.

     Identified, when applicable, preservation best practices at DOI and non-DOI sites visited.

     Analyzed DOI and bureaus’ management processes for preserving and protecting
      museum collections. 

                                               A‐3 
 
                                                                                      Appendix B 


                                   RELATED REPORTS

National Academy of Public Administration Report
“Saving Our History: A Review of National Park Cultural Resource Program,” October 2008

       Cultural resources, including resources of national significance, are at risk throughout the
       national park system. NPS is failing to fulfill its public trust for museum collections
       because 45 percent of its collections are not cataloged. There is also a lack of access to
       the NPS’ collections by researchers and the public. The panel made 18 recommendations
       in their review of the Cultural Resources Program.

OIG Audit Report No. Y-EV-NPS-0004-2008
“History Collection in Jeopardy at Harpers Ferry Center,” July 2008

       Harpers Ferry Center does not know what it has or where to find items that are cataloged.
       The Center lacks adequate documentation for cataloged records to document NPS’
       ownership of items. Records lack sufficient information to even locate the cataloged
       items.

US Army Corp of Engineers Report
“An Assessment of Museum Property at Select National Wildlife Refuges for the U.S. Fish and
Wildlife Service,” May 2007

       FWS, at select sites, did not 1) have a scope of collections plan at either the regional or
       refuge level and 2) inventory or catalog the objects and records to a standard consistent
       with those of a professional museum.

OIG Advisory Report No. 2003-I-0013
“Yosemite National Park’s Museum Operations, National Park Service,” March 2003

       Yosemite had not conducted the required annual physical inventories since 1993 and did
       not know the size or condition of its museum collections.

OIG Audit Report No. W-VS-NPS-0002-2007
“Verification Review of Recommendations from our March 2003 Advisory Report No. 2003-I-
0013, Yosemite National Park’s Museum Operations, National Park Service,” March 20, 2007

       Yosemite had resolved all of the recommendations from Advisory Report No. 2003-I-
       0013, related to the museum collection.




                                                B‐1 
 
                                                                                      Appendix B 

OIG Audit Report No. 99-I-808
“Cultural Resource Management, Bureau of Land Management,” September 1999

       BLM did not adequately control and account for its museum collections. The ownership
       of artifacts and historical items was not determined, newly collected objects were not
       timely deposited within repositories, required inventories were not completed, and
       collection agreements were not established with non-federal repositories.

OIG Audit Report No. 96-I-1245
“Follow-up of Recommendations Concerning Bureau of Indian Affairs’ Accountability and
Control over Artwork and Artifacts Located in the Main and South Interior Buildings,”
September 1996

       This OIG report is a follow-up of Audit Report No. 91-I-73. BIA had not conducted
       physical inventories of all artwork and artifacts. The inventory listings and property
       records were still inaccurate and incomplete. BIA still did not complete and file property
       receipts for all property in private offices.

OIG Audit Report No. 91-I-73
“Bureau of Indian Affairs Accountability and Control over Artwork and Artifacts Located in the
Main and South Interior Buildings,” October 1990

       BIA was not 1) maintaining adequate accountability, control, or storage of artwork and
       artifacts within the Main and South DOI Buildings in Washington, DC; 2) conducting
       physical inventories of all artwork and artifacts; and 3) issuing property receipts to assign
       responsibility for property in private offices.

OIG Audit Report No. 90-83
“Accountability and Control Over Artwork and Artifacts – Department of the Interior,” July
1990.

       DOI did not maintain adequate accountability and control over artwork and artifacts.
       Bureaus did not always perform physical inventories; reconcile inventory results with
       property records; and investigate missing, stolen, damaged or destroyed property. The
       Department also did not have detailed procedures for accessioning and cataloging
       property. Additionally, artwork and artifacts were not effectively safeguarded from theft,
       fire, and environmental hazards.

GAO Audit Report No. RCED-88-3
“Cultural Resources, Problems Protecting and Preserving Federal Archeological Resources,”
December 1987

       Federal agencies did not have complete and accurate records on what artifacts have been
       removed from their lands or where these artifacts are located.



                                                B‐2 
 
                                                                                                Appendix C 



                             SITES VISITED DURING AUDIT

DOI Sites Visited
Acadia National Park (NPS) – Bar Harbor, ME*
Alaska Native Claims Settlement Act Office (BIA) - Anchorage, AK*
Alaska Regional Curatorial Center (NPS) - Anchorage, AK*
Alaska Regional Office (FWS) - Anchorage, AK
Anasazi Heritage Center (BLM) - Delores, CO*
                                                                    * These sites provided a self-
Area Archeology Anchorage Field Office (BIA) – Anchorage, AK reported        checklist, which were used
Billings Curation Center (BLM) - Billings, MT*                      during the Preservation Evaluation. 
Boston National Historical Park (NPS) - Boston, MA
Bureau Headquarters (BIA) – Herndon, VA
Central Region Office (BIA) - Washington, DC
D.C. Booth Historic National Fish Hatchery (FWS) - Spearfish, SD*
Fort Union Trading Post National Historic Site (NPS) - Williston, ND*
Fort Vancouver National Historic Site (NPS) - Vancouver, WA*
Golden Gate National Recreational Area (NPS) - San Francisco, CA*
Hoover Dam Repository (BOR) - Boulder City, NV*
Huhugam Heritage Center (BOR) - Chandler, AZ*
Kenai National Wildlife Refuge (FWS) - Soldotna, AK*
Lewis and Clark National Historical Park (NPS) - Astoria, OR*
Lower Colorado Regional Office (BOR) - Boulder City, NV*
New Melones Artifact Storage Facility (BLM) – Jamestown, CA
Portland Regional Office (FWS) - Sherwood, OR*
Rocky Mountain Regional Office (BIA) - Billings, MT*
Sherman Indian School Museum (BIA) - Riverside, CA
South Florida Collections Management Center (NPS) - Homestead, FL*
Southern California Agency Office (BIA) - Riverside, CA
Southern Plains Regional Office (BIA) – Anadarko, OK*
Western Archaeological and Conservation Center (NPS) – Tucson, AZ*
Western Regional Office (BIA) – Phoenix, AZ*

non-DOI Sites Visited                                                        *** These sites were visited during
                                                                             both the audit and the evaluation. 

Denver Museum of Nature and Science - Denver, CO***
University of Colorado Museum of Natural History - Boulder, CO***
University of Denver Museum of Anthropology - Denver, CO***



                                                    C‐1 
 
                                                                                                 Appendix C 


                       SITES VISITED DURING EVALUATION

DOI Sites Visited
                                                                              ** These sites provided a self-
Arlington House (NPS) – Arlington, VA                                reported checklist that materially
                                                                     differed from our physical
Boston National Historical Park (NPS) - Charlestown, MA**            observations at these sites during
Central Office West (BIA) - Albuquerque, NM                          our audit. We chose to revisit the
Central Region Office (BIA) - Washington, DC**                       sites during our preservation
                                                                     evaluation and complete the
Fort Union National Monument (NPS) - Watrous, NM
                                                                     checklist ourselves. For our
Great Falls Park (NPS) - McLean, VA                                  preservation evaluation we used the
Hagerman Fossil Beds National Monument (NPS) - Hagerman, ID          checklist that we prepared rather
Mason Neck National Wildlife Refuge (FWS) - Woodbridge, VA           than the self-reported information. 

Middle Snake River Field Office (BOR) - Boise, ID
Minidoka Internment National Monument (NPS) - Hagerman, ID
National Historic Oregon Trail Interpretive Center (BLM) - Baker City, OR
New Melones Artifact Storage Facility (BOR) - Jamestown, CA**
Northeast Museum Services Center (NPS) - Boston, MA
Northern California Agency (BIA) - Redding, CA
Parker River National Wildlife Refuge (FWS) - Newburyport, MA
Patuxent Research Refuge (FWS) - Laurel, MD
Petroglyph National Monument (NPS) - Albuquerque, NM
Rocky Mountain Arsenal National Wildlife Refuge (FWS) – Commerce City, CO
Whiskeytown National Recreation Area (NPS) - Whiskeytown, CA

non-DOI Sites Visited                                                        *** These sites were visited during
                                                                             both the audit and the evaluation. 

Denver Museum of Nature and Science - Denver, CO***
Museum of New Mexico, Indian Arts & Culture, Laboratory of Anthropology – Santa Fe, NM
Museum of New Mexico Maxwell Museum of Anthropology - Albuquerque, NM
New Mexico Museum of Natural History and Science - Albuquerque, NM
University of Colorado Museum of Natural History - Boulder, CO***
University of Denver Museum of Anthropology - Denver, CO***




                                                    C‐2 
 
                                                                     Appendix D 


                  ABBREVIATIONS & ACRONYMS



ANCSA   Alaska Native Claims Settlement Act
BIA     Bureau of Indian Affairs
BLM     Bureau of Land Management
BOR     Bureau of Reclamation
DECRM   Division of Environmental and Cultural Resource Management
DM      Departmental Manual
DOI     Department of the Interior
FWS     Fish and Wildlife Service
GAO     Government Accountability Office
ICMS    Interior Collection Management System
IMPC    Interior Museum Property Committee
NPS     National Park Service
OIG     Office of Inspector General
PAM     Office of Acquisition and Property Management




                                      D‐1 
                                        

 
                                                             Appendix E 


                            SCOPE OF COLLECTIONS

                             No Scope of Collections

Bureau of Indian Affairs
Rocky Mountain Regional Office, Billings, MT
Southern Plains Regional Office, Anadarko, OK

National Park Service
Alaska Region Curatorial Center, Anchorage, AK

                         Outdated Scope of Collections

Bureau of Land Management
Anasazi Heritage Center, Dolores, CO

Bureau of Reclamation
Hoover Dam Repository, Boulder City, NV

Fish and Wildlife Service
Kenai National Wildlife Refuge, Soldotna, AK
Portland Regional Office, Sherwood, OR

National Park Service
Western Archaeological and Conservation Center, Tucson, AZ
Golden Gate National Recreation Area, San Francisco, CA
Boston National Historical Park, Boston, MA
Lewis and Clark National Historical Park, Astoria, OR




                                               E‐1 
 
                                                                                                     Appendix F 


                                   CHALLENGES REGARDING COLLECTIONS


In its “FY2007 Museum Collections Management Report,” BLM identifies the following
challenges regarding its collections stored at non-DOI facilities:

             Locating Collections: It must locate “permitted” and “legacy”11 collections held by non-
              federal facilities. Because of poor historical documentation on these collections, it must
              first identify facilities that potentially hold objects originating from BLM lands and then
              rely on those facilities to conduct inventories to determine the presence, content, and
              condition of collections.

             Determining Ownership: It is often difficult to determine ownership of collections
              because the necessary documentation is not adequate to determine whether the
              collections came from BLM lands.

             Requesting Inventory Data: The ability to request information and conduct inventory
              reviews is limited because these facilities have received little or no BLM funding.
              Efforts to obtain detailed information from non-federal facilities concerning BLM
              collections can antagonize the facilities that have curated these collections for decades
              without BLM support.

             Fees: Some facilities have closed to new collections, while others are increasing fees to
              match the escalating costs associated with managing these collections. BLM cites that
              some facilities increased the fee from $250 to $2,600 per cubic foot.




                                                            
11
  Permitted collections contain objects collected after BLM was delegated permitting authority in 1984 by
Secretarial Order 3104. Legacy collections contain objects collected by organizations prior to this 1984 delegation.
                                                               F‐1 

                                                                 
                                                                                      Appendix G 
 


                 DEPARTMENT COMMENTS AND OIG RESPONSES

    Department Comment Synopsis                                    OIG Response
General Comments
DOI stated that the report did not describe         We deleted the statement that DOI has shown
significant stewardship gains since 1990.           little interest in the program. However, we
These include the development of guidance for       stand by our overall conclusions on DOI’s
the bureaus and numerous initiatives to track       museum program. We found widespread
and monitor bureau programs such as                 issues with accessioning, cataloging, and
completion of annual museum summary                 inventorying of museum collections. While
reports, completion of two targeted                 there is ample guidance on managing museum
management control reviews of museum                collections, bureaus are simply not following
property collections, and development of the        that guidance. Numerous sites we visited
ICMS. DOI stated that it was misleading to          failed to conduct required annual inventories.
say that it had shown little interest in            Additionally, over 50 percent of museum
documenting its museum collections                  objects are not yet cataloged and DOI
                                                    estimates that full cataloging will not be
                                                    completed for at least another 20 years.
DOI stated that although the report discussed       We do not include a recommendation to
the lack of both funding and qualified staff, the   adequately fund the museum programs.
recommendations do not explicitly address           However, we do recommend that DOI develop
these deficiencies or the lack of congruence        and implement a plan to eliminate the
between currently allocated resource levels and     accessioning and cataloging backlogs.
the scope of the bureau legal responsibilities      Inherent in that process is identifying and
for stewardship of museum collections.              allocating the appropriate resources to
                                                    implement the plan – either through allocation
                                                    of discretionary funding or through specific
                                                    funding requests to the Congress.
Accountability Over Museum Collections
DOI requested additional information on our         We revised the report to provide additional
sampling strategy and expressed concern on          information on our sampling strategy.
our ability to draw conclusions that are
representative of all sites based on our sample
of sites.
The draft states that no SOC exists for the         We were informed by the ARCC that they
Alaska Region Curatorial Center (ARCC).             include there scope of collection in their
While the Center does not have a formal SOC,        Collection Management Policy. However,
the scope of collection is described in other       review of the policy disclosed that the section
management documents.                               labeled “Scope of Collection” did not include
                                                    required elements. Therefore, we concluded
                                                    that this was not a Scope of Collection.


                                                  G‐1 
                                                                                        Appendix G 

DOI stated our assertion that NPS did not have       Our statement that NPS does not have a
complete lists of all non-DOI facilities that        complete list of non-DOI facilities holding its
held their museum collections was misleading.        collections is true. While DOI’s response
While NPS could not provide a current                suggests that most of the non-DOI facilities
consolidated and comprehensive list of these         would be known by the individual parks, it did
institutions on short notice, the data exists at     not provide evidence to show that this is true.
the individual parks. While some facilities are      In fact, NPS’ own Park Collection Museum
not yet identified on the consolidated NPS list      Storage Plan, dated March 2007, states that not
being compiled, in most cases, they are known        all non-DOI institutions that curate NPS’
by the collection management staffs in               natural history collection have been identified
individual parks.                                    and the size of those collections had not been
                                                     completely verified in some cases.
Program Management
DOI requested more explicit guidance                 Our concerns with DOI’s management reports
concerning desired changes in management             were primarily related to the quality and
reports. 411 DM describes the format of the          accuracy of the data presented in the reports,
required reports including information on            rather than the specific format or categories of
funding, staffing, accomplishments,                  information presented.
hindrances, program history, and best available
numbers on cataloged and uncataloged
collections. DOI requested specific changes
that OIG desired in the information presented
in its reports.
DOI stated that individual bureaus are               Ultimately, the bureaus are responsible for
responsible for the museum property under            managing their museum collections. However,
their control and the actual management of           PAM has responsibility for establishing the
resources under their jurisdiction. PAM does         standards and providing oversight to the
not directly manage any resource program but         bureaus. Our recommendations are directed to
rather has an oversight, assistance, and             PAM in its oversight role – to ensure that the
coordination function. PAM does have policy          bureaus are implementing the program in
oversight for museum property within the             compliance with PAM’s established standards.
Department.
DOI stated that our draft report did not             The IMPC does not have a charter and there is
accurately describe the role of the Interior         no documentation that describes the purpose
Museum Property Committee (IMPC). The                and responsibilities of the IMPC. Based on
draft report stated that the IMPC does not have      review of meeting notes, we concluded that the
any oversight responsibilities, but instead, was     IMPC was intended to provide an oversight
established to assist PAM in implementing the        function. However, we agree with the
requirements of 411 DM and to provide a              Department that under 411 DM, PAM has
forum for sharing information among bureaus.         ultimate responsibility for providing oversight
                                                     to the bureaus for the museum programs. We
                                                     therefore deleted references to the IMPC in the
                                                     report.
                               

                                                   G‐2 
                                                     
                                                                                        Appendix G 

Recommendation 1
The Department did not concur with our draft         Based on the Department’s response, we
report recommendation that called for                revised our recommendation to focus on
“improving DOI’s Cultural Resources Program          Departmental oversight of the bureau museum
by developing a mission with clear objectives        programs. We agree that DM 411 adequately
and establishing greater Department oversight        describes the mission of the museum
of bureau programs.” The Department stated           programs; however, we found that bureaus are
that the recommendation should address the           not accomplishing that mission because they
Museum Program, rather than “the Cultural            are not following the requirements of DM 411
Resources Program” and that DM 411 clearly           and the guidance in the Museum Handbook.
identifies the Museum Program’s mission and          The Department’s response indicates that
objectives, The Department also stated that it       additional staff have been hired to provide
had done some oversight of bureau museum             oversight to the bureau programs, but does not
programs through review of required annual           provide specifics on the oversight activities
reports; however, additional oversight was           that these staff will conduct.
hindered due to staffing shortages. Staff have
now been hired to oversight the programs.
Recommendation 2
This recommendation was not included in our          411 DM provides only high level standards and
draft report. In its response to the draft report,   requirements for the Museum Program, not the
the Department noted that bureaus are not            detailed procedures necessary to implement
required to follow the guidance in the Museum        those standards and requirements. Those
Property Handbook. The Handbook is                   detailed procedures are included in the related
supplemental technical guidance offering             Museum Property Handbook. However, the
advice and information. While such                   bureaus are not required to comply with this
handbooks are typically considered part of the       guidance. The result is wide inconsistencies
applicable DM section, in this case, 411 DM          between procedures used at the 625
specifically states that the handbook adds no        Department facilities that house collection.
additional mandates to those found in 411 DM.        Therefore, we have added this recommendation
                                                     to strengthen the bureau museum programs.
Recommendation 3
The Department concurred and stated that             While we agree that development of the plan is
Interior Museum Program staff will partner           a necessary first step, continuing on the current
with bureau representative to develop a              path until beyond 2030 (more than 20 years) is
strategy to eliminate backlogs. The department       unacceptable. Innumerable irreplaceable
explained that bureaus established plans in the      museum items could be lost in the next 20
mid 1990’s that called for cataloging to be          years. We urge the Department to develop a
completed by the year 2030. Based on current         more aggressive plan to address the
backlogs and the available resources, however,       accessioning and cataloging backlog and to
actual completion will take much longer unless       allocate the necessary funding to implement
resource levels are increased to match the           the plan. To reduce the funding required, the
scope of the challenge.                              plans could incorporate less costly alternatives
                                                     including consolidation of facilities and use of
                                                     volunteers as separately recommended.

                                                 G‐3 
                                                   
                                                                                          Appendix G 

Recommendation 4
The Department did not concur with our draft          Based on the Department’s response, we
report recommendation which called for                revised our report to identify the sites that had
updates to the Scope of Collection Statements         not updated their SOC within the 5 years and
every 2 years as recommended by the                   revised our recommendation to match the
Department’s Museum Property Handbook.                requirements of 411 DM.
The Department stated that the value of such
frequent updates is questionable and suggested
that our recommendation should instead refer
to the Departmental Manual requirement that
updates occur a minimum of every 5 years.
Recommendation 5
The Department concurred, although it stated          Although the Department concurred with the
that the ability to conduct physical inventories      recommendation, it did not provide a plan for
has been restricted due to insufficiently staffed     how it will implement the recommendation.
bureau museum program infrastructures and
insufficient coordination among bureau
personal property management programs.
Recommendation 6
The Department concurred, stating that ICMS           We consider this recommendation resolved but
has been installed and is currently being             not completely implemented.
implemented at BIA, FWS, NPS, Indian Arts
and Crafts Board, U.S. Geological Survey,
National Business Center, and Minerals
Management Service. ICMS was to be
installed at BOR in July 2009 and at BLM in
August 2009. The Office of Special Trustee
for American Indians had not committed to a
date for installing the new collections
management software.
Recommendation 7
The Department partially concurred, stating           Although the Department partially concurred
that such centers create economies of scale and       with the recommendation, it did not provide
one standard of care with the potential for cost      information on the actions it plans to take to
savings. Careful planning will be required to         address the recommendation.
ensure access by the public, to negotiate inter-
bureau and inter-agency partnerships, and to
identify resources to establish or expand
consolidated curation centers.
                                




                                                    G‐4 
                                                      
                                                                                       Appendix G 

Recommendation 8
The Department partially concurred, stating          Although the Department partially concurred
that the Department and its bureaus cannot           with the recommendation, it did not provide
relinquish ownership responsibility for              information on the actions it plans to take to
museum property or delegate core fiduciary           address the recommendation. We agree that
responsibilities for the collections when they       when developing its partnerships, the
enter into partnerships. It is not appropriate for   Department and its bureaus should not
private institutions to assume financial             relinquish its ownership, fiduciary, and
responsibility for publicly owned museum             financial responsibilities. As we described in
collections.                                         our report; however, several sites have already
                                                     established partnerships with organizations
                                                     such as colleges and universities. These efforts
                                                     should be expanded where possible.
Recommendation 9
The Department concurred, stating that for           Although the Department concurred with the
decades, DOI and other Federal agencies have         recommendation, it did not provide
partnered with non-Federal institutions to care      information on the actions it plans to take to
for Federal museum collections. These                address the recommendation.
repositories are dedicated to the management
of museum collections, while Federal
organizations are not. Care must be taken;
however, to ensure that partnerships are
adequately funded, so they do not require
bureaus to duplicate the curation work
performed by non-Federal professionals.
Oversight of Federal resources is an important
responsibility, but such efforts should not
duplicate the curatorial efforts of non-Federal
repositories
Recommendation 10
The Assistant Secretary, Indian Affairs          We consider this recommendation resolved but
concurred with this recommendation. The          not implemented.
Indian Affairs’ DECRM and the Property
Division will collaborate to assess the museum
collection management processes and
determine the appropriate roles and
responsibilities to improve Indian Affairs’
accountability for the museum collections.
Discussions are planned to begin in the
summer of 2009. Once a determination is
made, Indian Affairs will issue formal policy at
the national level. The policy is planned to be
in place by early FY 2010.
 
                                                  G‐5 
                                                    
                                                                                   Appendix H 
 


                    STATUS OF RECOMMENDATIONS


Recommendations                Status                           Action Required
        1, 4                 Unresolved              The Department should state concurrence
                                                     or nonconcurrence with the revised
                     Management did not concur,      recommendation and provide information
                      recommendation revised         on actions taken or planned, including
                                                     target dates and titles of officials
                                                     responsible for implementation.


    3, 5, 7, 8, 9            Unresolved              The Department should provide additional
                                                     information on actions taken or planned,
                    Management concurred/partially   including target dates and titles of officials
                        concurred; additional        responsible for implementation.
                         information needed


         2                   Unresolved              The Department should state concurrence
                                                     or nonconcurrence with the new
                        New recommendation           recommendation and provide information
                                                     on actions taken or planned, including
                                                     target dates and titles of officials
                                                     responsible for implementation.


       6, 10        Resolved, but not implemented.   No further response to the Office of
                                                     Inspector General is needed. We will refer
                                                     the recommendation to the Assistant
                                                     Secretary for Policy, Management and
                                                     Budget for tracking of implementation.


    11, 12, 13               Unresolved              These recommendations are related to the
                                                     evaluation and were not included in the
                                                     audit report the Department responded to.




                                          H‐1 
                                                                                                       Appendix I 
 



                       PRESERVATION AND PROTECTION CHECKLIST


STORAGE
1. The space is in an area that will not flood if pipes break, drains back up, or roofs leak.
2. The space is appropriately insulated to help maintain stable environmental conditions.
3. Space is sufficient (e.g., low ceilings; inadequately sized doors; or narrow, winding, or steep stairways) and
    organized (e.g., boxes or items cannot be easily accessed) in a way to allow for the movement of staff,
    equipment, and objects in and out without hindrances.
4. Space is large enough to accommodate the current museum property and any anticipated growth.
5. Storage cabinets are in good condition (e.g., are free of rust, have gaskets intact to provide good sealing
    action, have smoothly operating doors) and have working keyed or combination lock mechanisms.
6. Storage cabinets are not stacked more than two high.
7. Open shelving is free of burrs, splinters, exposed nails, screws, and bolts that can damage museum materials
    and stabilized to prevent it from tipping over
8. Museum property that is stacked is protected by appropriate containers or cushioning materials.
9. If the unit is in an earthquake-prone area, restraining bars or elastic cords are attached to edges of shelves to
    prevent objects from falling off shelves during an earthquake.
10. Items are safe guarded against overcrowding, breakage, or cross-contamination.
11. Exhibit cases are designed and fabricated in a manner that ensures the security and preservation of museum
    property (i.e., minimizes heat buildup; controls light, relative humidity, and dust levels; and prevents access
    by insects).
12. Exhibit cases are designed and fabricated in a manner that facilitates maintenance (i.e., ease of access for
    inspection, inventory, cleaning, and rotation of sensitive materials).
13. Artwork is properly framed and is securely hung on the wall and artifacts are properly displayed.
ENVIRONMENT
14. Levels of relative humidity and temperature in storage and exhibit spaces are monitored on a daily basis to
    provide an accurate and complete picture of all changes in both of these environmental factors during each
    year and monitoring equipment is calibrated quarterly.
15. A record of daily observations, noting occurrences such as unusual exterior climatic conditions, a leaky
    roof, re-calibration of equipment, or an unusual visitation pattern, is maintained to help explain any
    variations in relative humidity and temperature readings.
16. Records of relative humidity and temperature readings and of daily observations are permanently retained in
    the unit's files.
17. Records of relative humidity and temperature readings and of daily observations are reviewed and analyzed
    monthly to determine relative humidity and temperature highs, lows, means, and the frequency and extent
    of fluctuations.
18. If a hygrothermograph is used to monitor relative humidity and temperature, it is regularly maintained (e.g.,
    linkage is cleaned and ink is replenished).
19. If space has windows, light is appropriately controlled for museum property.
                                                        I‐1 
                                                                                                        Appendix I 
                                                                                                                   
20. The placement of artwork is away from heating and air-conditioning vents.
21. Pest control devices are located in the artwork and artifact storage and exhibit areas.
22. The contents of the pest control devices are recorded, maintained, and analyzed if needed.
SECURITY
23. Keys to storage spaces and exhibit cases are issued only to those employees having direct responsibility for
    museum property.
24. Issuing of keys to museum storage spaces and exhibit cases is strictly controlled by the use of signed hand
    receipts.
25. All researchers, visitors, and non-curatorial staff who enter the storage area are escorted at all times by unit
    staff.
26. A visitor/researcher sign-in log is used to record names and addresses of visitors, the date of visit, the time
    entered and departed, and the reason for the visit.
27. Opening and closing procedures for museum spaces housing museum property are written, approved, and
    practiced.
28. Installed intrusion alarm systems are inspected and maintained on a regular schedule to ensure that they are
    fully operational.
29. Small, highly sensitive, and valuable museum materials, and natural history type specimens housed in
    museum storage spaces, are kept in cabinets with keyed or combination locks.
30. Irreplaceable, particularly sensitive, and valuable museum property used in exhibits is protected in cases or
    by other means that provide protection from theft or vandalism without making access impractical.
FIRE PROTECTION
31. Fire detection and suppression systems are inspected and maintained on a regular schedule to ensure that
    they are fully operational.
32. Fire extinguishers are inspected annually to ensure that they are operational.
33. Staff are trained in the use of fire extinguishers.
34. Museum property on top of shelving or storage cabinets does not obstruct the discharge heads for fire
    suppression systems.
35. Flammable liquids and materials are housed outside museum storage spaces and, regardless of where stored,
    such materials are housed in approved flammable storage cabinets with proper ventilation.
HOUSEKEEPING
36. Housekeeping in museum property spaces is performed according to an established schedule.
37. Unit-specific general rules and procedures are written to provide guidance on handling and housekeeping.
38. Handling and dusting of museum property is performed only by staff who have received appropriate
    training.
39. Smoking, drinking, and eating in museum storage and exhibit spaces are prohibited in writing.
PLANNING
40. The unit has an approved plan for managing and preserving museum property. (If yes, indicate the title and
    approval date under comment.)
41. The unit has an assessment of the condition of museum property on exhibit and in storage, and guidance on
    setting priorities for conservation treatment.
42. There are instructions that provide guidance for the safe and secure evacuation of artwork and artifacts.

                                                         I‐2 
                                                            
                                                                                                      Appendix I 
                                                                                                                 
STAFFING
43. Unit staff have been assigned curatorial responsibilities to ensure the preservation and protection of
    museum property.
44. Unit staff have received training in the preservation and protection of museum property.
ADDITIONAL DOCUMENTS
1.   Checklist Report
2.   Basic Security Protection Report
3.   Fire Protection Plan
4.   Integrated Pest Management Plan
5.   Environmental Control Plan
6.   Annual Emergency Management Plan
7.   Current Collection Storage Plan
8.   Written Handling Procedures




                                                        I‐3 
                                                           
 




     

              Report Fraud, Waste, Abuse 
                    And Mismanagement
                            Fraud, waste, and abuse in 
                        government concerns everyone: 
                        Office of Inspector General staff, 
                       Departmental employees, and the 
                       general public.  We actively solicit 
                        allegations of any inefficient and 
                      wasteful practices, fraud, and abuse 
                    related to Departmental or Insular area 
                   programs and operations.  You can report 
                        allegations to us in several ways. 




        By Mail                 U.S. Department of the Interior 
                                Office of Inspector General 
                                Mail Stop 4428 MIB 
                                1849 C Street, NW 
                                Washington, D.C. 20240 
                                 
        By Phone:               24‐Hour Toll Free       800‐424‐5081 
                                Washington Metro Area 703‐487‐5435 
                                 
        By Fax:                 703‐487‐5402 
                                 
        By Internet:            www.doioig.gov/hotline

                                                                Revised 07/07




                                       
                                       

 
